Audit of NARA’s Oversight of Selected Grantees’ Use
                  of Grant Funds


           OIG Audit Report No. 11-03


                February 16, 2011
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 5

Objectives, Scope, Methodology .................................................................... 6

Audit Results................................................................................................... 7

Appendix A – Summary of Findings Associated with OIG Audits ............ 17

Appendix B – Listing of Audit Site Visits and Grant Files Reviewed......... 19

Appendix C – Standard Form 424B Entitled Assurances Non-Construction
Programs....................................................................................................... 20

Appendix D – Example Accounting System and Financial Capability
Questionnaire ............................................................................................... 21

Appendix E – Accronyms and Abreviations .............................................. 23

Appendix F – Management’s Response to the Report ............................... 25

Appendix G – Report Distribution List ...................................................... 26
                                                                        OIG Audit Report No. 11-03


Executive Summary

The Office of Inspector General (OIG) completed an audit of the National Archives and
Records Administration’s (NARA's) grant management program. The National
Historical Publications and Records Commission (NHPRC) is NARA’s grant making
affiliate charged with providing grant funds to preserve, publish, and facilitate the use of
historical records.

The objective of our audit was to determine whether management controls are adequate
to ensure (1) grants are properly administered, (2) grant goals and objectives are met, and
(3) grant funds are adequately accounted for and appropriately used. Audit procedures
focused on evaluating the system of management controls over grant oversight and
included an evaluation of whether NHPRC grantees used grant funds in accordance with
federal regulations. As part of our audit, we selected and reviewed four grants 1 and
reviewed fifteen NHPRC grant files 2. One of the four grants selected, the Historical
Society of Washington, DC, was reviewed at the request of NHPRC because they
suspected the grant was not being properly managed.

While we found NHPRC has established adequate management controls to ensure grant
goals and objectives are identified and met, opportunities exist to improve controls over
the financial monitoring of grants and reduce program risks. Specifically NHPRC does
not employ a formal structured or systematic risk management approach to monitoring
grants. As a result NHPRC cannot adequately: (1) determine whether a grantee has the
ability to administer, monitor and account for grant funds prior to the award of a grant;
(2) determine how frequent to perform a grant review, how comprehensive a grant review
should be and identify potential troubled grants, and (3) mitigate risk and request
appropriate refunds associated with grantees not meeting their cost share 3 obligations.

As a result, NHPRC’s grant program is at risk of waste and abuse. Our review of the
active and closed grants assessed during this audit resulted in questioned costs of
$789,479 4, and funds to better use of $434,589 5. In addition, the audit identified grantees
were not always following grant regulations, the intent of the grant contract and did not
always use grant funds as intended. A risk-based approach to financial monitoring of
grants is critical to ensuring grantees appropriately account for, and use grant funds for
their intended purpose.



1
  See Appendix A: Summary of Findings Associated with OIG Grant Recipient Audits.
2
  See Appendix B: Listing of Audit Site Visits and Grant Files Reviewed.
3
  Cost sharing is the financial contribution the applicant pledges to the cost of a project Cost sharing
expenditures can include both direct and indirect expenses, in-kind contributions, and any income earned
directly by the project.
4
  See Appendix A: Summary of Findings Associated with OIG Grant Recipient Audits.
5
  See Table 1: Analysis of Closed Grant Projects Regarding Obligatory Cost Share
                                            Page 3
                         National Archives and Records Administration
                                                                       OIG Audit Report No. 11-03


We are encouraged by NHPRC’s stated dedication to improving its grant monitoring
practices and by their receptiveness to our audit recommendations for additional financial
monitoring. Specifically, during the course of our review, NHPRC took action to
develop and implement enhanced pre-award certification 6 procedures which will aid their
ability to assess a grantee’s financial capability prior to the award of the grant.

This report contains four recommendations for action necessary to address the findings
identified, and to assist management in improving program stewardship.




6
  NHPRC developed an enhanced pre-award certification requiring the grantee to acknowledge their ability
to meet federal financial accounting requirements. Specifically, the pre-award certification addresses
whether the grantee has: (1) an appropriate accounting system; (2) timekeeping procedures for project
personnel; and (3) written procedures for salaries, travel, and procurement.
                                            Page 4
                         National Archives and Records Administration
                                                              OIG Audit Report No. 11-03


Background

The National Historical Publications and Records Commission (NHPRC) is the grant
making affiliate of the National Archives and Records Administration (NARA). NHPRC
provides grant funds to preserve, publish, and facilitate the use of historical records. The
Commission is a 15-member body, chaired by the Archivist of the United States, and
administered by the NHPRC Executive Director and staff. Each year the NHPRC
receives a Congressional appropriation from which it awards grants; for fiscal year 2010
NHPRC awarded $9.9 million in grants. NHPRC estimates, on average, they award 125
grants each year. The NHPRC has prioritized funding levels into two broad areas; half
the funds going to publishing projects; and half to archives, state programs, electronic
records, digitization, and professional development.

The NHPRC staff implements NHPRC grant program policies and guidelines, provides
assistance and advice to potential applicants, advises the Commission on grant proposals,
and monitors each grant awarded by the Commission. To monitor grants awarded,
NHPRC staff ensures the grantee submits (1) annual financial status and bi-annual
narrative progress performance reports and (2) a final financial and narrative performance
report.

The Office of Management and Budget (OMB) has promulgated the following
government-wide policies to ensure proper stewardship of federal grants:

       •   OMB Circular A-110, Uniform Administrative Requirements for Grants and
           Agreements with Institutions of Higher Education, Hospitals, and Other Non-
           Profit Organizations, sets forth standards for obtaining consistency and
           uniformity among Federal agencies in the administration of grants. The
           standards in OMB Circular A-110 apply to all Federal agencies and contain
           the specific requirements and responsibilities that must be followed when
           awarding and administering grants.
       •   OMB Circular A-122, Cost Principles for Non-Profit Organizations,
           establishes the cost principles applicable to grants, contracts, and other
           agreements with non-profit organizations.
       •   OMB Circular A-21, Cost Principles for Educational Institutions, establishes
           the cost principles applicable to grants, contracts, and other agreements with
           educational institutions.
       •   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
           Organizations, was issued pursuant to the Single Audit Act of 1984, Public
           Law 98-502, and the Single Audit Act Amendments of 1996, Public Law 104-
           156. This circular sets forth consistency and uniformity among federal
           agencies for the audit of states, local governments, and non-profit
           organizations expending federal funds.


                                         Page 5
                      National Archives and Records Administration
                                                              OIG Audit Report No. 11-03


Objectives, Scope, Methodology

The objective of our audit was to determine whether NHPRC has adequate management
controls to ensure (1) grants are properly administered, (2) grant goals and objectives are
adequately met, and (3) grant funds are adequately accounted for and appropriately used
by grantees.

To accomplish our objective we:
   • Reviewed NARA and OMB guidance pertaining to applying for, awarding, and
       grants administration including: OMB Circular A-110, Uniform Administrative
       Requirements for Grants and Agreements with Institutions of Higher Education,
       Hospitals, and Other Non-Profit Organizations; OMB Circular A-122, Cost
       Principles for Non-Profit Organizations; OMB Circular A-21, Cost Principles for
       Educational Institutions; and OMB Circular A-133, Audits of State, Local
       Governments, and Non-Profit Organizations.

   •   Conducted four grant reviews including:
          1. American Institute of Physics located in College Park, Maryland
          2. George Washington University located in Washington, D.C.
          3. Historical Society of the Supreme Court located in Washington, D.C.
          4. Historical Society of Washington, D.C. located in Washington, D.C.

   •   Reviewed NHPRC grant file documentation for fifteen grant projects with an
       award value of $3,179,225. The grant file documentation reviewed included the:
       (1) application, proposal and grant program budget submitted by the grantee, (2)
       peer review documentation, (3) award notification, (4) narrative and financial
       reports, (5) reimbursement or advance requests, (6) communication
       documentation between NHPRC and the grantee, and (7) close-out evaluations.

   •   Reviewed available grantee financial and payroll records to substantiate grant
       expenditures.

   •   Interviewed appropriate NHPRC and grantee staff.

Our work was performed at Archives I and at the grantee locations identified above
between June 2009 and September 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.



                                         Page 6
                      National Archives and Records Administration
                                                                          OIG Audit Report No. 11-03


Audit Results

Structured Risk Management Activities Need to be Applied to Financial
Grant Monitoring

NHPRC does not employ a formal structured or systematic risk management approach to
monitoring grants; therefore, NHPRC cannot adequately: (1) determine whether a
grantee has the administrative and financial capability 7 to account for grant funds prior to
the award of a grant; (2) determine how frequent to perform a grant review, how
comprehensive a grant review should be, and identify potential troubled grants, and (3)
mitigate risk and request appropriate refunds associated with grantees not meeting their
cost share obligations. NHPRC officials stated they did not have a comprehensive risk
assessment process for determining whether a grantee has the administrative and
financial capability to manage a grant, nor had they developed a risk based process for
monitoring and determining which grants to review whereby relevant risk factors such as
age of program, program size, or experience of the grantee are considered. Further,
NHPRC has not established clear policies concerning the grantees obligation to meet cost
share. According to the General Accountability Office (GAO), Standards for Internal
Control in the Federal Government, risk assessment requires identifying and analyzing
relevant risks associated with achieving an organization’s objectives and determining
how risks should be managed. Without a more structured process for determining and
assessing risk, NHPRC cannot provide adequate assurance that risks associated with its
grant program are properly addressed and mitigated.

Our review of active and closed grants resulted in questioned costs of $789,479, funds to
better use of $434,589 8 and identified grantees were not always following grant
regulations, the intent of the grant contract, and did not always use grant funds as
intended. By developing a comprehensive risk-based financial monitoring program
based on a combination of desk reviews, on-site visits and pre-award capability
assessment, NHPRC can better direct and identify needed resources to provide adequate
financial oversight. Effective financial monitoring assists in identifying and reducing
fiscal program risks as early as possible, thus protecting federal funds and ensuring grant
funds are properly accounted for and used for their intended purpose.




7
  Administrative and financial capability refers to the grantee’s ability to administer, monitor and account
for grant funds. Key indicators that a grantee has administrative and financial capability includes whether a
grantee has: (1) experience and/or training in managing grant funds; (2) an understanding of grant
regulations; and (3) an appropriate accounting system in accordance with generally accepted accounting
standards or agency directives. An appropriate accounting system has the ability to segregate federal grant
program costs, can relate actual costs to budgeted costs, and includes an adequate system for documenting
grant expenditures including an appropriate timekeeping system.
8
  See Table 1: Analysis of Closed Grant Projects Regarding Obligatory Cost Share
                                             Page 7
                          National Archives and Records Administration
                                                                       OIG Audit Report No. 11-03


NHPRC Does Not Assess Grantees’ Financial Capability Prior to Award of Grant

NHPRC was not performing any preliminary assessment of the applicant’s administrative
and financial capability, including the applicant’s accounting system and operations prior
to the award of the grant, to determine whether the grantee had the ability to properly
manage and account for federal grant funds. Organizations receiving grant funds need
adequate administrative and financial management systems in place to ensure grant funds
are used for their intended purpose, and in accordance with regulations. OMB Circulars
A-122, A-21 and A-110 establish cost principles and standards for grantee financial
systems. A capability assessment process will enable NHPRC to determine whether a
potential grantee has adequate financial systems before awarding the grant, and can be
used to determine the amount of grantee oversight needed.

Of the four grants we audited, the Historical Society of Washington, D.C. (HSW) and the
Supreme Court Historical Society (SCHS) did not have a timekeeping system in place to
document grant expenditures, which resulted in the $789,479 9 in questioned costs.
Additionally, we found HSW misused grant funds and did not have the administrative or
financial capability to manage grant funds. Both HSW and SCHS had little or no prior
experience managing grant funds, and stated they were unaware of the federal
requirement to document labor expenditures. A pre-award capability assessment
questionnaire would have alerted NHPRC to these deficiencies and could have prevented
the questioned costs and misuse of grant funds.

The NHPRC Director stated NHPRC relies on the grantee certification to provide
assurance the grantee is capable of managing a federal grant. We found NHPRC required
the grantee to sign a generic Standard Form 424B 10 prescribed by OMB entitled,
Assurances-Non-Construction Program. By signing this form the grantee, in addition to
other areas of assurance, attests to their institutional, managerial, and financial capability
to ensure proper planning, management and completion of the project described in their
application. In its White Paper entitled A Guide to Grant Oversight and Best Practices
for Combating Grant Fraud the Grant Fraud Committee 11 reported the use of signed
certifications by grantees as among the most effective tool for educating the grantee on
the terms and conditions of the grants, but warned of the use of generic certifications.
The Committee stated in their report that “agencies too often rely solely on generic
certifications, which are of limited usefulness” in educating the grantee of its obligations
to comply with grant requirements. NHPRC’s reliance on the generic Standard Form
424B is not effective while the use of an assessment questionnaire would enable NHPRC
to determine whether a grantee had the financial and administrative capability to manage
a federal grant.




9
  See Appendix A: Summary of Findings Associated with OIG Grant Recipient Audits.
10
   See Appendix C: Standard Form 424B entitled Assurances Non-Construction Programs.
11
   The Grant Fraud Committee is chaired by the Inspector General for the Department of Justice and has
active members from 16 agencies.
                                            Page 8
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 11-03


The Guide to Opportunities for Improving Grant Accountability, (dated October 2005)
prepared by members of the Grant Accountability Project 12, states preliminary
administrative and financial capability assessments are essential to reducing the
Government’s risk when awarding grants and a capability assessment ensures an
applicant has adequate financial systems to properly manage the grant. The guide
highlights four federal agencies (Environmental Protection Agency, National Science
Foundation, Department of Education, and Department of Energy) with promising pre-
award risk assessment practices. Two of the agencies use a financial management
systems questionnaire in which the grantee applicant is asked for accounting,
timekeeping, and funds management information (See Appendix D-Example Accounting
System and Financial Capability Questionnaire). Noted weaknesses are addressed either
by requiring the applicant to take corrective action, applying additional conditions to the
grant agreement, or by not making the grant award—depending on severity of the
identified problem. The other two agencies requested additional grant program funding
to conduct pre-award audits of the grant applicants. These pre-award audits identify
grantees with limited administrative capabilities prior to the award of federal funds.

In another best practice example, the Texas Commission of the Arts was applauded for its
procedure of scoring the grantees’ financial and administrative capability as part of the
award process. Applicants must show measureable evidence of organizational support
and exhibit the financial ability needed to complete the grant. The financial and
administrative capability of the grantee is scored as 20 percent of the total possible
points. Competition promotes fairness and openness in the selection of grantees.
Evaluation criteria, including sound financial management practices, can direct focus on
factors indicative of a successful grant project.

Recommendation 1

We recommend the Director of NHPRC assess a grant applicant’s administrative and
financial capability prior to awarding a grant by use of an assessment questionnaire or
pre-award audit process as deemed appropriate.

Management Response

Management concurred with recommendation.




12
  The Grant Accountability Project was initiated by the Domestic Working Group chaired by the
Comptroller General of the United States and consists of 19 federal, state, and local audit organizations.
The Inspector General of the U.S. Environmental Agency heads this project.
                                             Page 9
                          National Archives and Records Administration
                                                              OIG Audit Report No. 11-03


NHPRC Needs to Increase its Post Award Financial Monitoring

 NHPRC does not perform an appropriate level of financial monitoring and oversight
whereby risk factors such as age of program, program size, or experience of the grantee
are considered. NHPRC could significantly improve the adequacy and effectiveness of
its financial monitoring program by developing a comprehensive risk-based post award
grantee financial monitoring program that includes: (1) an increased number of on-site
reviews; (2) development of a financial desk review program; (3) enhanced monitoring of
requests for grant advances; and (4) more frequent performance and financial reports
where appropriate. Specifically we found:

   •   NHPRC has only completed ten on-site grant reviews since their on-site
       monitoring program began in February 2004 (averaging two site visits per fiscal
       year) and has not completed a grant review since August 2008. Of these ten site
       visits, two were not formally documented-- NHPRC does not have a report to
       verify these two visits. On average NHPRC awards 125 grants per fiscal year;
       thus, the percentage of on-site grant monitoring is not sufficient, and cannot be
       relied upon as a significant contribution to NHPRC’s financial monitoring
       program. We reviewed five on-site monitoring reports prepared by NHPRC and
       found three reports identified several financial and accounting issues requiring
       corrective action including: (1) revisions to the grantee’s project budget and final
       financial report to reflect expenses actually incurred during the grant period; (2)
       lack of timekeeping documentation supporting cost share; (3) inability of the
       accounting system to track actual (vs. budgeted) grant expenditures; and (4) the
       inability of the accounting system to compare actual cost to budgeted cost. The
       findings documented by the OIG and the on-site visits conducted by NHPRC
       exemplify the need for an expanded on-site monitoring program to ensure all
       grant funds are managed and accounted for according to federal regulations.

       The Guide to Opportunities for Improving Grant Accountability cites the
       Environmental Protection Agency (EPA) for its best practice whereby EPA
       requires grant staff to perform desk or on-site reviews on 10 percent of all
       grantees each year. These reviews include an analysis of grantee financial
       systems, including timekeeping and drawdown procedures, and an examination of
       whether the grantee is meeting its matching requirements. If the review is
       performed on-site, the staff performs transaction testing. An appropriate level of
       on-site grantee visits will provide assurance the grantee has an adequate financial
       system and is properly using federal funds.

   •   NHPRC has not adequately addressed the risk associated with their multi-year,
       long-term grant projects by establishing a financial monitoring program that
       recognizes the risk associated with long-term grant projects. Continuing grant
       projects have an inherent risk of fund misuse or noncompliance with federal
       regulations because of the amount of time involved and the inclusion of more


                                        Page 10
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 11-03


         federal funds. Additionally, there is a greater risk of grant fraud or misuse of
         funds when a grantee becomes aware they are not closely monitored 13.

         We questioned the entire federal grant award of $762,320 14 provided to the
         Supreme Court Historical Society (SCHS) due to lack of documentation
         (timesheets) supporting labor cost for their most recent multi-year grant for the
         period January 1, 2004 to December 31, 2006. Key SCHS personnel, including
         the Executive Director, Assistant Director, and Project Director, have been
         involved with the grant project since its inception 29 years ago. SCHS officials
         stated they were unaware timesheets were required to document labor charges.
         SCHS officials explained that because NHPRC (1) never requested additional
         documentation beyond the routine financial reports submitted or (2) never
         conducted a site visit to review their financial records, SCHS believed they had
         managed grant funds appropriately. Had NHPRC established a policy to
         periodically conduct site-visit reviews for multi-year grant projects, on a cyclical
         basis such as every three years, this situation could have been corrected.

         NHPRC has approximately thirty ongoing grant projects with funding programs
         greater than five years—most have not been reviewed by NHPRC. Some of these
         long-term projects have been in existence over 25 years and at least one project is
         60 years old. With limited staff resources available for monitoring activity,
         NHPRC needs to prioritize resources to grant projects with greater risk indicators,
         such as the age of the program.

     •   NHPRC has not developed a desk audit monitoring program to supplement its
         financial monitoring program, which currently consists of (1) review of annual
         financial reports submitted by the grantee and (2) an insufficient number of on-
         site visits. Desk audits can be used to assess the general financial management
         environment of a grantee, review selected accounting and financial management
         policies (such as whether a grantee has an appropriate timekeeping system) and
         verify financial information submitted by the grantee. A desk audit should be
         designed to develop reasonable assurance the grantee has adequate policies,
         processes and systems to properly manage federal awards. The focus of the desk
         audit should be on grant administration and accounting practices, rather than
         technical or programmatic achievement and can be used more frequently and with
         fewer resources than an on-site visit.

     •   NHPRC does not have monitoring procedures to ensure advanced federal
         funds 15 are in compliance with federal cash management requirements 16 and that
         grantees have not requested excessive funds. NHPRC was unsure how many


13
   We reviewed four long-term projects, (ranging from eight years to forty-six years) and identified these
projects had the same project director for the life of the project.
14
   See Appendix A: Summary of Findings Associated with OIG Grant Recipient Audits.
15
   Advance means a payment made by Treasury check or other appropriate payment mechanism to a
recipient upon request either before outlays are made by the recipient or through the use of predetermined
                                            Page 11
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 11-03


         grantees have requested fund advancements versus reimbursement. However, our
         review of grants found one grantee, HSW, did not manage advanced federal funds
         in compliance with federal regulations and had excess funds at their disposal with
         no corresponding appropriate expenditure.

    •    NHPRC does not consider risk factors in establishing the frequency a grantee is
         required to submit financial statements. NHPRC requires all grantees to submit
         an annual financial statement; and adequately reviews, documents, and ensures
         these reports are submitted timely from the grantee. However, grantees with risk
         indicators such as age of program, program size, or experience of the grantee are
         not required to submit financial reports more frequently.

    •    NHPRC does not have procedures to monitor indirect overhead cost rates 17 used
         to fulfill the grantee’s cost sharing obligation. In our review of grant files, we
         found two grantees with approved budgets that used expired indirect cost rates.
         NHPRC was not aware the cost rates were expired and relied on the grantee’s
         certification the approved rates were appropriate.

We are encouraged by action taken by NHPRC during the course of this audit.
Specifically, NHPRC took action to develop enhanced pre-award certification procedures
which specifically identifies whether a grantee meets federal requirements in the
following areas: (1) an appropriate accounting system, (2) timekeeping procedures for
project personnel, and (3) written procedures for salaries, travel, and procurement.

However a significant limitation on the level of monitoring performed relates to the lack
of personnel resources NHPRC is able to dedicate to monitoring efforts. The Director of
NHPRC stated over the past five years her staff has worked over-time hours to
accommodate work associated with significant increases in the number of grant
applications received and subsequently awarded. Since fiscal year 2006, the number of
applications NHPRC staff review has more than doubled and the number of awards given
has significantly increased. Additionally, NHPRC officials stated they were unsure how
comfortable NHPRC staff were with monitoring financial topics and have considered
contracting or hiring personnel with specialized experience reviewing financial data.




payment schedules. NHPRC allows grant recipients to request three months of projected outlays in
advance.
16
   OMB regulations require grant recipients requesting federal fund advancements (vs. reimbursements) to
minimize the time elapsing between the transfer of funds and the disbursement by the recipient as
evidenced by written accounting procedures and adequate financial management systems. Further,
requests for cash advances are to be limited to the minimum amounts needed.
17
   Indirect costs are those incurred for common or joint objectives and cannot be readily identified with a
particular cost objective. Typical examples of indirect cost may include depreciation of operating and
maintaining facilities, general administration and general expenses, such as the salaries and expenses of
executive officers, personnel administration, and accounting.
                                            Page 12
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 11-03


Recommendation 2

We recommend the Director of NHPRC develops a comprehensive risk-based financial
monitoring program including attributes such as: (1) an appropriate level of on-site visits
and/or desk audits, (2) the frequency of on-site visits and/or desk audits for their long-
term grant projects; (3) additional monitoring procedures for federal advances; (4) more
frequent submittal of financial reports for grantees with certain risk factors; and (5)
procedures for monitoring whether a grantee is using a valid pre-approved indirect cost
rate.

Management Response

Management concurred with recommendation.

Recommendation 3

We recommend the Director of NHPRC request additional resources as appropriate to
accommodate the increased financial monitoring.

Management Response

Management concurred with recommendation

NHPRC has Not Established Clear Policies Concerning the Grantees Obligation to Meet
Cost Share

NHPRC does not have a well-defined policy to ensure grantee cost share obligations
established in the grant agreement are met 18. Specifically, NHPRC’s cost share policy
does not identify (1) when a cost share agreement is enforceable, (2) what enforcement
action is appropriate, (3) what specific circumstances are accepted to forgive an
unfulfilled cost share commitment, and (4) procedures to formally document review and
close-out of the grantees’ cost share obligation. GAO Standards for Internal Control in
the Federal Government, states federal managers are “responsible for developing the
detailed policies, procedures, and practices to fit their agency’s operations” necessary to
achieve the desired results that support effective stewardship of public resources. Without
a well-defined, formal written policy to address NHPRC’s grantee cost share program
NHPRC may miss opportunities to obtain a refund of grant funds when the grantee fails
to meet their cost share commitment. When promised cost sharing is not realized, the
grantee has not fulfilled their obligation and should refund a portion of the federal funds
they have received.


18
  Cost sharing is the financial contribution the applicant pledges to the total cost of a project. NHPRC may
specify a minimum cost share requirement in the grant announcement. The cost share reflected in the grant
agreement is the cost share the grantee states in its proposed budget and may be more than NHPRC had
required in the grant announcement. Cost sharing expenditures can include both direct and indirect
expenses, in-kind contributions, and any income earned directly by the project.
                                            Page 13
                         National Archives and Records Administration
                                                                           OIG Audit Report No. 11-03


The NHPRC Director stated, in general, NHPRC requires the grantee to provide cost
sharing in an amount equal to the amount of the federal grant award and any exceptions
to the one-to-one cost sharing requirement are communicated in the grant opportunity
announcement. Thus, if a grantee requested $100k in grant funds, the grantee would be
required to minimally pledge $100k in cost share prior to award of the grant. However,
NHPRC’s policy for monitoring and closing out cost share conflicts with their one-to-one
cost sharing requirement for awarding the grant. Grant projects achieving 80 percent of
their cost sharing obligation are closed without any additional review or intent to recover
funds from the grantee 19. NHPRC does not have established procedures to describe an
appropriate enforcement action when the grantee has not met its cost share obligation--as
reflected in the approved grant budget/award notice. We found that other federal
agencies have identified (1) possible termination of the grant, (2) disallowance of grant
costs and/or (3) refund of grant funds, as enforcement actions imposed on grantees not
fulfilling their cost share obligations.

We reviewed grant file documentation for eleven closed grant projects and found seven
grantees did not meet their cost share obligations. Had NHPRC enforced the seven cost
share agreements, NHPRC could have requested $434,589 in grant refunds (See Table 1
below) and NARA could have put these funds to better use. Of the seven files that did
not met the promised cost share: (1) four met 80 percent of their contracted cost share
obligation; (2) two did not meet 80 percent of their contracted cost share obligation and
provided an explanation for not meeting cost share; and (3) one did not meet the 80
percent of its contracted cost share obligation and did not provide an explanation for the
difference.

NHPRC’s blanket indemnity for any grantee meeting only 80 percent of their required
cost share, combined with the lack of a well-defined cost sharing policy, leaves the
NHPRC open to the risk of grantees not fulfilling their grant obligations. Further,
NHPRC has not recognized the grantee’s cost share commitment as a condition of the
award, and as such is subject to audit and is enforceable. It is our opinion NHPRC
should clearly communicate to the grantee that (1) once the cost share promise has been
accepted and included in the grant agreement it becomes legally binding and subject to
audit and (2) failure to provide the level of cost sharing reflected in the grant agreement
could result in a refund of grant funds.

Finally, identification of when forgiveness of the grantees’ cost share obligation would be
appropriate should be recognized as an occasional necessity based on a case by case
evaluation, and should not be automatically forgiven after only meeting a percentage
benchmark. Cost sharing is an important contribution from the grantee and when it is not
met, NHPRC program objectives may not be met—or at least not as efficiently as
possible.



19
   NHPRC’s published regulations, 36 CFR Part 1206.82, entitled, “What is the format and content of the
financial report?” states “if cost-sharing figures are less than 80 percent of the amount anticipated in the
project budget, you must explain the reason for the difference.”
                                             Page 14
                          National Archives and Records Administration
                                                          OIG Audit Report No. 11-03


Recommendation 4

We recommend the Director of NHPRC develop a formal cost share policy addressing:
(1) when a cost share agreement is enforceable taking into consideration what cost
sharing is required to accomplish the objectives of the award, (2) an appropriate
enforcement schedule, (3) specific circumstances that would warrant cost share
forgiveness, and (4) development of procedures to formally document review and close-
out of the grantees’ cost share obligation.

Management Response

Management concurred with recommendation.




                                       Page 15
                    National Archives and Records Administration
                                                                                  OIG Audit Report No. 11-03




        TABLE 1: ANAYLIS OF CLOSED GRANT PROJECTS REGARDING
                        OBLIGATORY COST SHARE
                                           Cost Share of
                                           Grantee per Grant    Actual Cost Share    Total Project          Funds to Better
                                                                                          20                        21
Grantee                                    Agreement            Born by Grantee      Cost                       Use
American Institute of Physics
Grant No. RA-05207-03                             51%                  60%                     194,111                        0
Supreme Court Historical Society
Grant No. 2004-026                                42%                  29%                  1,069,611               139,049
George Washington University
Grant No. NAR06-081
(E. Roosevelt)                                    66%                  71%                     644,958                        0
George Washington University
Grant No. PH-10024-07
(E. Roosevelt)                                    74%                  63%                     614,222                  67,564
George Washington University
Grant No. PH-10056-08
(E. Roosevelt)                                    66%                  51%                     529,469                  79,420
George Washington University
Grant No. NAR06-033
(First Federal Congress)                          57%                  42%                     321,497                  48,225
George Washington University
Grant No. PA-05695-07
(First Federal Congress)                          59%                  49%                     353,665                  35,367
University of the State of New
York Grant No. NAR04-002
(SHRAB)                                           52%                  44%                     483,309                  38,665
Ulysses S. Grant Association
Grant No. NAR06-040                               76%                  64%                     219,159                  26,299
Ulysses S. Grant Association
Grant No. PH-10018-08 22                          57%                  56%                     187,954                        0
Massachusetts State Historical
Records Advisory Board
Grant No. NAR04-021                               63%                  64%                     264,270                        0
Total                                                                                                             $434,589




        20
           Total project costs were determined from the grantee’s final financial report and includes the actual
        amount contributed by the federal grant and the actual amount of the grantee’s cost share.
        21
           Funds to Better Use were calculated as follows: (total project cost * grantees’ actual cost share) less
        (total project cost * cost share per agreement).
        22
           We did not include this grant as one that did not meet its cost share obligation because the refund amount
        was less than $3,000.
                                                     Page 16
                                  National Archives and Records Administration
                                                                        OIG Audit Report No. 11-03


Appendix A – Summary of Findings Associated with
OIG Audits

We selected four grants for audit: American Institute of Physics (AIP), George
Washington University (GWU), Supreme Court Historical Society (SCHS), and the
Historical Society of Washington, D. C. (HSW).

Regarding the grant audits, we found AIP and GWU adequately accounted for and
appropriately used the grant funds they were provided. However, we questioned
$789,479 in federal funds provided to the SCHS and HSW due to a lack of supporting
documentation. Further, we recommended NHPRC either terminate or temporarily
suspend the HSW grant. We found HSW misused federal funds and lacked appropriate
administrative capability to account for grant funds. As a result of our findings, we
issued management two reports identifying our findings and requested written response
regarding actions planned to address the questioned costs and status of the HSW grant.


       Table 2: Summary of Findings from Grantee Audits

       Grantee       Grant          Questioned Other Grantee                    Action Taken
                     Award          Costs      Related Issues                   by
                                                                                Management
       AIP               78,200       None          None                        N/A
       GWU            1,475,662       None          None                        N/A
       SCHS             762,320       762,320       Lack of documentation       No action taken
       HSW              155,500        27,159 23    Misuse of grant             Grant terminated;
                                                    funds/administrative        decision on
                                                    deficiencies/lack of        questioned costs is
                                                    documentation               still pending
       TOTALS $2,471,682             $789,479


Management was issued Report No. 10-01, National Historical Publications and Records
Commission Grant No. 2004-026 Supreme Court Historical Society dated October 26,
2009. In this report management was asked to provide written response to actions
planned regarding the questioned costs. The questioned costs were based on our finding
that SCHS was unable to provide adequate documentation (timesheets) supporting grant
funds given them. Management decided to not pursue recovery of grant funds
questioned, based on the fact that the grant objectives were met and that the product
received by SCHS was of unquestioned high quality. NHPRC issued their written
response on January 21, 2010.

23
     HSW was advanced $47,568, but had only expended $27,159 at the time of the audit.
                                              Page 17
                           National Archives and Records Administration
                                                            OIG Audit Report No. 11-03



Management was issued Report No. 10-15, Audit of the National Historical Publications
and Records Commission Grant No. RB-50061-09 Historical Society of Washington,
D.C. dated June 23, 2010. In this report management was asked to provide written
response to our recommendations:

    1. Either (a) terminate this grant or (b) temporarily withhold cash payments on this
       grant until all accounting/grant management deficiencies identified in our report
       are corrected and HSW is placed on Special Conditions status for the remainder
       of the grant project
    2. Decide whether any grant funds expended ($27,159) should be disallowed based
       on lack of documentation (timesheets), general lack of grant management, and
       misuse of grant funds.

Our recommendations were based on our findings that HSW used federal funds advanced
to them for organizational expenditures not associated with the grant program while
allowing legitimate grant fund expenditures go delinquent. Management decided to
terminate the grant and is waiting a final report from HSW before making a decision
regarding the questioned cost. NPRC issued their written response on August 6, 2010.




                                        Page 18
                     National Archives and Records Administration
                                                                     OIG Audit Report No. 11-03


Appendix B – Listing of OIG Audits and Grant Files
Reviewed

          TABLE 3: Listing of OIG Audit Sites and Grant Files
                              Reviewed
                                           Grant       Type of          Grant         Date of Site
                                           Award       Review           Project          Audit
  Grantee                                  Amount                       Status

  American Institute of Physics
  1. Grant No. RA-05207-03                   78,200       Audit #1        Closed    June 2009

  Supreme Court Historical Society
  2. Grant No. 2004-026                     762,320       Audit #2        Closed    August 2009

  George Washington University
  3. Grant No. NAR06-081
     (E. Roosevelt)                         189,180       Audit #3        Closed    November 2009

  4. Grant No. PH-10024-07
     (E. Roosevelt)                         227,016       Audit #3        Closed    November 2009

  5. Grant No. PH-10056-08
     (E. Roosevelt)                         260,896       Audit #3        Closed    November 2009
  6. Grant No. NAR06-033
     (First Federal Congress)               185,261       Audit #3        Closed    November 2009

  7. Grant No. PA-05695-07
     (First Federal Congress)               179,703       Audit #3        Closed    November 2009
  8. Grant No. PA-10007-08
     (First Federal Congress)               223,098       Audit #3         Active   November 2009

  9. Grant No. PA-10009-09
     (First Federal Congress)               210,508       Audit #3         Active   November 2009

  Historical Society of Washington D.C.
  10. Grant No. RB-50061-09                 155,500       Audit #4         Active   March 2010

  University of the State of New York                   File review
  11. Grant No. NAR04-002 (SHRAB)           289,613         only          Closed    Not applicable.

  Ulysses S. Grant Association                          File review
  12. Grant No. NAR06-040                    79,764         only          Closed    Not applicable.

                                                        File review
  13. Grant No. PH-10018-08                  95,717         only          Closed    Not applicable.

  Massachusetts State Historical Records
  Advisory Board                                        File review
  14. Grant No. NAR04-021                   100,000         only          Closed    Not applicable.

  Philadelphia Museum of Art                            File review
  15. Grant No. RA-10035-07                 142,449         only           Active   Not applicable.
  Total                                    3,179,225




                                             Page 19
                          National Archives and Records Administration
                                                 OIG Audit Report No. 11-03


Appendix C – Standard Form 424B Entitled Assurances
– Non-Construction Programs




                               Page 20
            National Archives and Records Administration
                                                 OIG Audit Report No. 11-03


Appendix C – Standard Form 424B Entitled Assurances
– Non-Construction Programs (cont.)




                               Page 21
            National Archives and Records Administration
                                                OIG Audit Report No. 11-03


Appendix D – Example Accounting System and
Financial Capability Questionnaire




                              Page 22
           National Archives and Records Administration
                                                OIG Audit Report No. 11-03


Appendix D – Example Accounting System and
Financial Capability Questionnaire (cont.)




                              Page 23
           National Archives and Records Administration
                                                   OIG Audit Report No. 11-03


Appendix E – Acronyms and Abbreviations

AIP     American Institute of Physics

EPA     Environmental Protection Agency

GAO     General Accountability Office

GWU     George Washington University

HSW     Historical Society of Washington, D.C.

NARA    National Archives and Records Administration

NHPRC   National Historical Publications and Records Commission

OIG     Office of Inspector General

OMB     Office of Management and Budget

SCHS    Supreme Court Historical Society




                                 Page 24
              National Archives and Records Administration
                                                 OIG Audit Report No. 11-03


Appendix F – Management’s Response to the Report




                               Page 25
            National Archives and Records Administration
                                                          OIG Audit Report No. 11-03


Appendix G - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Chief of Staff
Executive Director NHPRC




                                        Page 26
                     National Archives and Records Administration
